  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


INFORMATION SECURITY WEAKNESSES
 POSE RISK TO OPERATIONS AND THE
 MISSION OF THE SUBSTANCE ABUSE
   AND MENTAL HEALTH SERVICES
         ADMINISTRATION




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Thomas M. Salmon
                                                 Assistant Inspector General

                                                       September 2013
                                                        A-18-12-30420
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

 Information security controls at the Substance Abuse and Mental Health Service
 Administration were inadequate because the Information Technology Infrastructure and
 Operations organization had not implemented and monitored the information security
 protections.

WHY WE DID THIS REVIEW

Office of Management and Budget Circular A-130, appendix III, requires that agencies
implement and maintain a security program to assure that adequate security is provided for all
support systems and major applications. The Federal Information Security Management Act of
(FISMA) 2002 provides a comprehensive framework for ensuring the effectiveness of
information security controls over information resources and provides for development and
maintenance of minimum controls required to protect Federal information and information
systems.

The selection and implementation of appropriate security controls for an information system are
important tasks that can have major implications on the operations and assets of an organization
as well as the welfare of individuals and the Nation. Security controls are the management,
operational, and technical safeguards or countermeasures employed within an organizational
information system to protect the confidentiality, integrity, and availability of the system and its
information.

OBJECTIVE

Our objective was to assess the adequacy of information security controls by evaluating
Substance Abuse and Mental Health Services Administration’s (SAMHSA) inventory
management, patch management, antivirus management, event management, logical access,
encryption, web vulnerability assessment and Universal Serial Bus (USB) port controls that are
owned and managed by Information Technology Infrastructure and Operations (ITIO).

BACKGROUND

Office of Management and Budget Circular A-130, appendix III, requires that agencies
implement and maintain a security program to assure that adequate security is provided for all
support systems and major applications. FISMA provides a comprehensive framework for
ensuring the effectiveness of information security controls over information resources and
provides for development and maintenance of minimum controls required to protect Federal
information and information systems.

The selection and implementation of appropriate security controls for an information system are
important tasks that can have major implications on the operations and assets of an organization
as well as the welfare of individuals and the Nation. Security controls are the management,
operational, and technical safeguards or countermeasures employed within an organization

Report No. A-18-12-30420                                                                    i
information system to protect the confidentiality, integrity, and availability of the systems and its
information.

HOW WE CONDUCTED THIS REVIEW

We reviewed selected information technology (IT) security controls in effect as of June 2012.
These controls were inventory management, patch management, antivirus management, event
management, logical access, encryption, web vulnerability management and USB port control
management. For our review we used Federal and Departmental policies as our principle
criteria. We did not review the overall internal control structure of SAMHSA. We performed
our fieldwork at SAMHSA’s offices in Rockville, Maryland.

WHAT WE FOUND

We found five categories of vulnerabilities:

   1. Inventory Management. – The records given to us by ITIO had different totals of
      computers it managed for SAMHSA. Inventory was not tracked and managed effectively
      and therefore neither ITIO nor SAMHSA was able to account for all SAMHSA IT assets
      and ensure their security compliance.

   2. Patch Management. – SAMHSA did not ensure that ITIO had effectively implemented its
      patch management program for those devices managed by ITIO. We identified
      vulnerabilities within the SAMHSA network that if exploited could have led to
      unauthorized disclosure, modification, or non-availability of critical data.

   3. Antivirus Management. - ITIO and SAMHSA did not ensure that all of the SAMHSA
      computers and servers managed by ITIO had updated antivirus signatures.

   4. Logical Access. – ITIO and SAMHSA did not implement an effective logical access
      control process for its user accounts and did not conduct sufficient reviews to ensure that
      only valid users had access to their information system.

   5. USB Port Control Access. – ITIO and SAMHSA did not have any technical controls to
      prevent unauthorized and unencrypted USB devices from connecting to SAMHSA
      computers.

WHAT WE RECOMMEND

We recommend that SAMHSA meet with the Assistant Secretary for Administration to address
the issues identified in this report. In addition, we recommend that SAMHSA ensure that ITIO
implements the 17 detailed recommendations in Appendix A to address the specific findings we
identified.




Report No. A-18-12-30420                                                                    ii
AUDITEE COMMENTS

In written comments on our draft report, SAMHSA concurred with all of our recommendations
and described the actions they will take to implement them. We have included SAMHSA’s
comments in their entirety in Appendix D.




Report No. A-18-12-30420                                                          iii
                                                TABLE OF CONTENTS
                                                                                                                              Page
    INTRODUCTION .................................................................................................................. 1
       OBJECTIVE ....................................................................................................................... 1
       BACKGROUND ................................................................................................................ 1
       HOW WE CONDUCTED THIS REVIEW ........................................................................ 2
    FINDINGS .............................................................................................................................. 3
       Inventory Management ....................................................................................................... 3
       Patch Management .............................................................................................................. 4
       Antivirus Management........................................................................................................ 6
       Logical Access ……………………………………………………………………………8
       USB Port Control Management …………………………………………………………..9
    RECOMMENDATIONS ...................................................................................................... 11
    APPENDIXES
       A: AUDIT RECOMMENDATIONS .............................................................................. 11
       B: AUDIT SCOPE AND METHODOLOGY ................................................................. 13
       C: CRITERIA AND FEDERAL REQUIREMENTS………………………………….. 14
       D: SAMHSA RESPONSE……………………………………………………………... 19




Report No. A-18-12-30420                                                                                                       iv
                                        INTRODUCTION

WHY WE DID THIS REVIEW

Office of Management and Budget Circular A-130, appendix III, requires that agencies
implement and maintain a security program to assure that adequate security is provided for all
support systems and major applications. The Federal Information Security Management Act
(FISMA) provides a comprehensive framework for ensuring the effectiveness of information
security controls over information resources and provides for development and maintenance of
minimum controls required to protect Federal information and information systems.

The selection and implementation of appropriate security controls for an information system are
important tasks that can have major implications on the operations and assets of an organization
as well as the welfare of individuals and the Nation. Security controls are the management,
operational, and technical safeguards or countermeasures employed within the organizational
information system to protect the confidentiality, integrity, and availability of the system and its
information.

OBJECTIVE

Our objective was to assess the adequacy of information security controls by evaluating
Substance Abuse and Mental Health Services Administration’s (SAMHSA) inventory
management, patch management, antivirus management, event management, logical access,
encryption, web vulnerability assessment and Universal Serial Bus (USB) port controls that are
owned and managed by Information Technology Infrastructure and Operations (ITIO).

BACKGROUND

Information Security

Office of Management and Budget Circular A-130, appendix III, requires that agencies
implement and maintain a security program to assure that adequate security is provided for all
support systems and major applications. FISMA provides a comprehensive framework for
ensuring the effectiveness of information security controls over information resources and
provides for development and maintenance of minimum controls required to protect Federal
information and information systems.

In recent years, legislation and Presidential Decision Directives have focused on safeguards for
critical systems, assets, and infrastructures within the public and private sectors. The most recent
enactment was FISMA, Public Law 107-347, Title III. The purpose of the law is to provide a
comprehensive framework for ensuring the effectiveness of information resources that support
Federal operations and assets, and provide a mechanism for improved oversight of Federal
agency information security programs.

The selection and implementation of appropriate security controls for an information system are
important tasks that can have major implications on the operations and assets of an organization
Report No. A-18-12-30420                                                                    1
as well as the welfare of individuals and the Nation. Security controls are the management,
operational, and technical safeguards or countermeasures employed within an organizational
information system to protect the confidentiality, integrity, and availability of the system and its
information.

Substance Abuse and Mental Health Services Administration’s Mission

SAMHSA’s mission is to reduce the impact of substance abuse and mental illness on America’s
communities. In 2011 alone, approximately 20 million people who needed substance abuse
treatment did not receive it and an estimated 10.6 million adults reported an unmet need for
mental health care. As a result the health and wellness of the individual is jeopardized and the
unnecessary costs to society ripples across America’s communities, schools, business, prisons &
jails, and healthcare delivery systems.

SAMHSA’s Division of Technology Management, Information Technology (DTM-IT)
maintains and manages 24 laptops. The 24 laptops are used by SAMHSA’s employees when on
official travel. SAMHSA’s, DTM-IT security management is responsible for patching and
providing antivirus updates to the 24 laptops.

Office of the Secretary Managed Information Technology

The information technology (IT) needs of SAMHSA, are supported by a contractor. The
contract is managed by the Office of the Secretary (OS) ITIO group. Through the ITIO, OS has
awarded a competitive, multi-year IT service contract to Lockheed Martin. The Service
Limitation Agreement (SLA) includes task order awards for computers and infrastructure
support, for business application hosting, and for continuity of operations and disaster recovery
planning. The contractor is responsible for managing the network infrastructure (i.e., the
network, routers, firewalls, and general use servers) and user desktops for SAMHSA and other
small OPDIVs. ITIO has oversight responsibilities over the contractor to ensure that all aspects
of the contract are successfully completed.

ITIO is responsible for the core switches, routers, and firewalls used to connect to the SAMHSA
network. ITIO is also responsible for antivirus and patching updates for workstations that
SAMHSA’s employees use.

HOW WE CONDUCTED THIS REVIEW

We reviewed selected SAMHSA IT security controls in effect as of June 2012. These controls
were inventory management, patch management, antivirus management, event management,
logical access, encryption, Web vulnerability assessment, and USB port control management.
For our review we used Federal and Departmental policies as our principle criteria. We did not
review the overall internal control structure of SAMHSA because it was not directly related to
our objective. We performed our fieldwork at SAMHSA’s offices in Rockville, Maryland.




Report No. A-18-12-30420                                                                    2
                                            FINDINGS

We conducted interviews with SAMHSA’s and ITIO’s security and IT personnel, reviewed
policies and procedures, and tested controls in place. We found that some controls over the
SAMHSA network and logical access were inadequate. We particularly noted that the ongoing
problem with establishing an accurate computer inventory adversely affected the reliability of
other processes such as patch and antivirus management.

Information security controls at SAMHSA were inadequate because ITIO had not implemented
and monitored all the information security protections. Our report includes five findings relating
to inventory management, patch management, antivirus management, logical access and Port
Control Access for SAMHSA and ITIO senior management consideration.

Although we did not find evidence that these weaknesses had been exploited, exploitation could
result in unauthorized access to, and disclosure of, sensitive information and disruption of critical
operations for the SAMHSA. As a result, we believe the weaknesses are collectively and, in
some cases, individually significant and could potentially compromise the integrity of the
SAMHSA network.

Inventory Management

Inventory management is a critical process in effectively managing ITIO owned workstations,
laptops, servers, and other IT components. ITIO must properly assess IT inventory to ensure
accuracy and an adequate protection of all systems connected to the network. Additionally, the
FISMA reporting template for FY 2012 requires that HHS, of which SAMHSA is a part, to fully
account for and report all IT assets on its network (e.g., routers, servers, workstations, laptops,
and blackberries) to provide visibility at the organization level.

Inventory was not tracked and managed effectively by ITIO and therefore neither SAMHSA nor
ITIO were able to account for all of SAMHSA’s IT assets. Our analysis identified the following
exceptions:

   •   HHS departmental policy on the Property Management Information System (PMIS)
       which was mandated by the Assistant Secretary for Administration and Management
       (ASAM) on June 24, 2004, requires all assets be tracked in an asset inventory database.
       ITIO did not use PMIS to track Property Plant and Equipment (PP&E) records for those
       assets that were owned and managed by ITIO and used by SAMHSA’s employees.

   •   ITIO had not established an effective method for IT asset inventory management. There
       were no controls in place to ensure an accurate count of those IT assets used by
       SAMHSA’s personnel that were owned and managed by ITIO. During our review,
       SAMHSA and ITIO provided a number of inventory listings from these tools of total
       assets managed by ITIO that did not agree, revealing major discrepancies.




Report No. A-18-12-30420                                                                    3
           o SAMHSA’s inventory list of servers showed four servers running Windows 2000
             on its network, while the Symantec Risk Assessment Suite (RAS) tool managed
             by ITIO reported seven servers running Windows 2000.

           o The report generated by the Altiris patch management tool did not display
             operating systems for two workstations. This was inconsistent with RAS, as RAS
             displayed 33 workstations running operating systems that were “unknown” under
             ITIO managed assets. Additionally, the RAS report also displayed 17
             unauthorized SAMHSA managed machines active on the network.

           o RAS displayed two Linux servers running on the SAMHSA network that, ITIO
             Security Operations Center staff could not identify.

Neither ITIO nor SAMHSA could explain why there was differences between the various
listings nor why outdated operating system software remained in service. Without effectively
controlling its hardware inventory, SAMHSA and ITIO were unable to account for and ensure
security compliance of all its IT assets, such as current patch levels and anti-virus deployment
status.

Because of these exceptions, SAMHSA and ITIO were unable to effectively implement
standardized configuration requirements to protect SAMHSA’s network from possible malicious
attacks. Without an accurate accounting of its IT asset inventory, SAMHSA and ITIO were
unable to know whether all computers were adequately protected. Using operating systems that
are no longer supported by the vendor exposed SAMHSA computing resources and data owned
and managed by ITIO to unnecessary risk because known security vulnerabilities were not
remediated. All of these issues also contributed to SAMHSA’s and ITIO’s being unable to
appropriately determine SAMHSA’s overall security posture, and to effectively implement a
security monitoring program that is both continuous and automated.

AUDITEE COMMENTS

SAMHSA concurred with all of our recommendations.

Patch Management

Patch management is the process of identifying, reporting, and effectively remediating
information system flaws in an operational system. Timely patching helps organizations
maintain operational efficiency and effectiveness, overcome security vulnerabilities, and
maintain stability in the production environment. Organizations that cannot establish an
information security control program that is both mature and based on a rigorous set of controls
and processes might have a number of security vulnerabilities that, if exploited, could lead to
unauthorized access of sensitive data. Minimizing this threat requires organizations to have
properly configured systems, to use the latest software supported by the vendor, and to have the
recommended efficiency and security patches installed.



Report No. A-18-12-30420                                                                  4
ITIO did not effectively implement a patch management program for those assets it owns and
manages for SAMHSA. ITIO gave us a partial listing of patches that it had implemented. We
noted the following exceptions:

   •   ITIO was unable to provide patch status reports covering our requested timeframe
       (December – May 2012). Therefore, we were unable to determine whether servers and
       workstations owned and managed by ITIO for SAMHSA received the applicable security
       patches.

   •   ITIO could not provide us evidence to support that periodic reviews of installed and
       missing security patches were done on SAMHSA systems. We could not determine
       whether ITIO had given patch implementation reports to SAMHSA’s Chief Information
       Security Officer (CISO).

   •   Neither SAMHSA nor ITIO were reconciling inventory reports with patching or antivirus
       compliance reports. We found inconsistencies within the inventory reports provided by
       ITIO. As a result, we were unable to determine whether all workstations and servers
       were properly patched. For example, an ITIO inventory listing displayed 748
       workstations but the patch compliance report displayed 707 machines.

   •   SAMHSA officials stated that non-governmental machines were allowed to access
       SAMHSA’s network.

In addition, we identified four Windows 2000 Servers and one Windows Server 2003 R2 SP1 on
the ITIO inventory listing. Windows 2000 Server reached its end of life (EOL) on July 13, 2010.
Windows Server 2003 R2 SP1 reached its EOL on March 13, 2009. In the patching and
antivirus world, end of life indicates that the computer product has reached its useful lifetime and
the vendor will no longer be marketing, selling, supporting or provide patches.

SAMHSA relied on ITIO to generate periodic reviews and reports for SAMHSA’s IT
management. However, ITIO failed to provide that information to us. Additionally, neither
SAMHSA nor ITIO reconciled the inventory to validate the accuracy of the assets owned and
managed by ITIO for SAMHSA.

For non-government machines, SAMHSA stated that it follows the HHS/ITSC Program Security
Guide. This guideline requires that foreign hardware (non-governmental machines), whether
laptops or desktops, be configured with a minimum baseline security set-up. The baseline
included patching, antivirus, file encryption, and firewall settings. Systems that were not
configured to meet these requirements were required to be issued a network connection denial
notice.

Without proper procedures for patch installations and monitoring, SAMHSA and ITIO exposed
its operating systems to attacks. Running un-patched computers and servers left SAMHSA
systems susceptible to exploits that could have led to unauthorized disclosure, modification, or
non-availability of critical data. Compromised computers can be used as a jumping off point for
hackers to attack other resources in the network. Furthermore, as part of an effective information
Report No. A-18-12-30420                                                                   5
security continuous monitoring strategy, the SAMHSA CISO should have received monthly
reports for controls with more volatility (e.g., patch and anti-virus distribution) or on controls for
which there have been weaknesses or lack of compliance.

In addition, without an accurate inventory of components within the organization, SAMHSA and
ITIO were unable to ensure that all applicable computers and servers were properly patched.

AUDITEE COMMENTS

SAMHSA concurred with all of our recommendations.

Antivirus Management

Antivirus management is the automated process used to effectively identify, isolate, and
eliminate suspected malicious software for computer security virus protection. Antivirus
software should be implemented and maintained at critical information system entry points and
computers on a network to detect and eradicate malicious code transported by email, removable
media, or other methods. Antivirus controls are important for the detection and removal of
malicious software such as computer viruses, worms, and trojans, which can infect a computer
system or network.

Our analysis of the antivirus management reports indicated that not all ITIO owned and managed
computers and servers used for SAMHSA’s operations had updated signatures. An antivirus
signature is an algorithm or hash (a number derived from a string of text) that uniquely identifies
a specific virus.

Neither SAMHSA nor ITIO security management gave any indication as to why there was no
documented evidence of antivirus alert remediation. In addition, SAMHSA and ITIO
management did not include a follow-up process for computers with outdated timestamps or
process for servers within ITIOs antivirus Standard Operating Procedures (SOP). We noted the
following exceptions from the antivirus data and reports provided:

   •   We judgmentally selected thirty desktop and laptop user accounts from SAMHSA’s
       Active Directory (AD) list to review the antivirus engine and signature timestamps. We
       reviewed SAMHSA’s Symantec Endpoint Protection report dated August 09, 2012. The
       report indicated that virus signatures for:

           o Two of the thirty ITIO owned and managed systems were last updated with the
             antivirus signature 47 and 364 days prior, to report date.

           o One ITIO owned and managed server was last updated with the antivirus
             signature on November 21, 2011.

   •   We were unable to determine whether all servers were updated with applicable antivirus
       timestamps due to SAMHSA’s and ITIO’s inability to reconcile the various server
       inventory lists.
Report No. A-18-12-30420                                                                     6
           o Three servers that received the latest Symantec Signature updates for antivirus
             were not included on one of the ITIO inventory server lists.

           o There were 16 servers not found on the Symantec Signature Timestamp antivirus
             listing that appeared on the two server listings provided by ITIO. Therefore the
             status of these servers could not be determined.

   •   Both SAMHSA and ITIO were alerted 120 times from ITIO’s Nitro Security Information
       and Event Management (SIEM) tool, between 04/14/2012 to 08/27/2012. However,
       neither SAMHSA nor ITIO was able to provide documentation to support follow-up or
       remediation of the alerts.

   •   ITIO antivirus SOP did not contain follow-up processes for machines not in compliance
       with latest antivirus time stamp and did not cover follow-up procedures for servers.

   •   The ITIO’s computer naming convention did not identify SAMHSA or any of the other
       OPDivs, nor reference either the state or district (e.g. MD or Washington, DC) associated
       with the IP address. HHS policy requires that the inventory database should at a
       minimum distinguish the name, location, asset identification (ID), owner, and description
       of the use.

Neither SAMHSA nor ITIO security management could provide a reason why the timestamps
for the two tested computers were not current. ITIO management did not create specific naming
conventions for its laptops/desktops and/or servers to differentiate computer inventory between
the OPDIVs.

Without adequately documented procedures, SAMHSA computing resources that are owned and
managed by ITIO may not be effectively protected.

Viruses can cause serious damage to systems. Failure to keep antivirus software signatures up to
date can result in the widespread distribution of viruses within SAMHSA’s network. The
concerns relating to antivirus are that:

   •   Without proper installation of antivirus software, users may mistakenly believe that their
       system are virus-free and may inadvertently spread a virus.

   •   Without proper naming conventions, ITIO cannot achieve effective accountability for
       updating antivirus.

   •   Without indicating actions taken, no determination can be made that security
       management has reviewed and/or remediated the virus alert.

AUDITEE COMMENTS

SAMHSA concurred with all of our recommendations.
Report No. A-18-12-30420                                                                 7
Logical Access

Logical access controls provide reasonable assurance that management protects computer
resources against unauthorized modification, disclosure, loss, or impairment. Inadequate access
controls over computerized data increases the risk of destruction or inappropriate disclosure of
data. Logical access controls include the process over authorization requests, creation of
accounts, certification/approval of access, and termination processes.

We reviewed user account privileges in AD, performed an assessment of key AD dates, and
reviewed Virtual Private Network (VPN) data. Our analysis identified the following exceptions
to the 644 SAMHSA user accounts:

   •   ITIO had 15 SAMHSA user accounts with a last password change date greater than 60
       days.

   •   ITIO had seven SAMHSA user accounts with a last log on date greater than 60 days.

   •   ITIO had one SAMHSA account with a password status of “Not Required”.

   •   ITIO had three SAMHSA remote user accounts with last password change date greater
       than 60 days.

   •   ITIO had one SAMHSA remote user account with last log on date greater than 60 days.

   •   ITIO had four separated SAMHSA employees that were still on the AD listing that had
       not been disabled. One terminated employee was also on the remote user list.

   •   ITIO had several SAMHSA generic and generic administrative user accounts still in their
       Active Directory.

SAMHSA’s and ITIO’s security management stated that they did not review the user access
privileges for SAMHSA’s AD and remote access accounts.

Inadequate controls over access accounts diminishes the safety and reliability of data, and
increases the risk of an unauthorized user gaining access, or an authorized user elevating his or
her privileges without management knowledge. Without a logical control process that meets
requirements, management is not assured that individual users are properly identified, access is
restricted to properly authorized users, and user activity is restricted to authorized functions.

AUDITEE COMMENTS

SAMHSA concurred with all of our recommendations.



Report No. A-18-12-30420                                                                  8
USB Port Control Access

In today’s computing environment, the confidentiality of information stored on USB devices
faces many threats, both unintentional (e.g., human error, device loss) and intentional (e.g.,
theft). Intentional threats are posed by people with many different motivations, including the
desire to cause mischief and disruption and to commit identity theft and other fraud. Someone
with physical access to a device has many options for attempting to view or copy the information
stored on the device. Malware, another common threat, can give attackers unauthorized access
to a device, transfer information from the device to an attacker’s system, and perform other
actions that jeopardize the confidentiality of the device’s information.

To prevent unauthorized access to information, particularly to personally identifiable information
(PII) and other sensitive data, the information needs to be secured. Encryption is the primary
security control for restricting access to sensitive information stored on end-user devices.
Encryption may be applied granularly to individual files or broadly to all stored data. The
appropriate encryption solution depends primarily on the type of storage, the amount of
information that needs to be protected, where the storage will be located, and the threats that
need to be mitigated. Encryption should always be used on portable devices that are used to
store or transport sensitive information.

ITIO security management did not have technical controls on the computers they owned and
managed for SAMHSA to prevent unauthorized and unencrypted USB devices from connecting
to SAMHSA computers. The security software used allowed users to choose between encrypting
and not encrypting the devices. However, we found that if the user elects not to encrypt, the
software still allowed the user to download data onto the device.

We judgmentally selected 10 computers, and used an application called USBDeview to list all
USB devices that had been connected to the computers. The USBDeview software detected
multiple unencrypted Pantech phones, android phones, wireless Bluetooths and USB mass
storage devices that had been connected to the 10 computers tested. SAMHSA used the
Checkpoint Endpoint Security Tool which could provide device control on the ten computers
tested. However, based on the results of our testing of devices that had been attached to
SAMHSA’s computers through USB ports SAMHSA did not use these functions to block
unauthorized devices from attaching to their computers and preventing data from being written
onto unauthorized USB devices. Without such controls, there is a risk that confidential data
could be written onto an unauthorized/unencrypted USB device and taken out of the SAMHSA’s
spaces, possibly resulting in a data breach.

ITIO did not use the full functionality of its Checkpoint Endpoint Security Tool to block
unauthorized devices from attaching to the computers ITIO owned and managed for SAMHSA.

Without sufficient USB controls, there is a risk that malicious software could be transferred from
the USB devices to those computers owned and managed by ITIO for SAMHSA and
subsequently into the SAMHSA’s network. In addition, critical/sensitive information could be
stored and transferred to unencrypted devices and removed from SAMHSA work spaces.

Report No. A-18-12-30420                                                                 9
AUDITEE COMMENTS

SAMHSA concurred with all of our recommendations.


                                  RECOMMENDATIONS

We recommend that SAMHSA meet with the Assistant Secretary for Administration to address
the issues identified in this report. In addition, we recommend that SAMHSA ensures that ITIO
implements the 17 detailed recommendations in Appendix A to address the specific findings we
identified.




Report No. A-18-12-30420                                                            10
                                                                            APPENDIX A



                         APPENDIX A: RECOMMENDATIONS


                                         Office of Inspector General
Findings                          Risk   Recommendations
To address the Inventory          High      • Implements the Departmental Property
Management issues identified in                 Management Information System (PMIS)
this report, we recommend that                  in order to provide a continuous monitoring
SAMHSA ensures ITIO:                            program to SAMHSA that will accurately
                                                account for all IT assets, and provide
                                                comprehensive reporting to the SAMHSA
                                                Chief Information Officer (CIO).

                                            •   Updates inventory to include all computers
                                                and servers connecting to the SAMHSA
                                                network that are managed by ITIO.
                                                Employ controls that ensure an effective
                                                method for tracking computer inventory is
                                                implemented.

                                            •   Upgrades or replace all servers with End-
                                                of-Life (EOL) operating systems to
                                                operating systems supported by the vendor

To address the Patch Management High        •   Security team ensure that patch reports are
issues identified in this report we             accessible to SAMHSA’s Chief
recommend that SAMHSA ensures                   Information Security Officer.
ITIO:
                                            •   Should reconcile SAMHSA’s inventory
                                                and patch report data, at least monthly, to
                                                determine whether all assets are
                                                appropriately patched.
To address the Antivirus          High      •   Update all computers and servers running
Management issues identified in                 out of date antivirus timestamp signatures.
this report we recommend that
SAMHSA ensures ITIO:                        •   Establish effective procedures to monitor
                                                and remediate computers with out-of-date
                                                timestamp signatures.

                                            •   Document logging alerts that have been
                                                remediated.

                                            •   Add the following processes to ITIO’s
                                                Infrastructure Operations Standard


Report No. A-18-12-30420                                                          11
                                                                            APPENDIX A


                                               Operating Procedure (SOP):

                                                          − Follow-Up process for
                                                            computers not in
                                                            compliance with latest
                                                            antivirus time stamps within
                                                            SOP.
                                                          − Process for server antivirus
                                                            management.

                                           •   Create naming conventions that include
                                               computer names that will define which
                                               organization it has been assigned to.

To address the Logical Access       High   •   Disable accounts inactive greater than 60
issues identified in this report we            days and subsequently delete accounts
recommend that SAMHSA ensures                  determined to be no longer needed greater
ITIO:                                          than 90 days.

                                           •   Delete user accounts of terminated
                                               employees.

                                           •   Should disable, delete, or provide a waiver
                                               for the user account with a password status
                                               of “Not Required”

                                           •   Periodically review access user control lists
                                               to determine if accounts are still needed.

To address the USB Port Control    High    •   Restrict personnel from connecting
Access issues identified in this               unauthorized USB devices to computers.
report we recommend that                   •   Prevent sensitive data from being written to
SAMHSA ensures ITIO:
                                               unauthorized/unencrypted USB devices.
                                           •   Enforce the Department information
                                               security policy that restricts the connection
                                               of personally owned equipment to
                                               Department systems or networks.




Report No. A-18-12-30420                                                         12
                                                                                   APPENDIX B



                  APPENDIX B: AUDIT SCOPE AND METHODOLOGY
SCOPE

We reviewed selected IT security controls in effect as of June 2012. These controls were
inventory management, patch management, antivirus, event management, logical access,
encryption, web vulnerability assessment and Universal Serial Bus (USB) port control
management. Network management refers to the activities that pertain to the operations,
administration, maintenance, and configuration of networked systems. Areas of network
management included in this audit were limited to patch management, antivirus management and
event management. We did not review the overall internal control structure of SAMHSA. We
performed our fieldwork at SAMHSA’s offices in Rockville, Maryland.

METHODOLOGY

We audited SAMHSA’s information security controls by reviewing policies and procedures,
interviewing employees, reviewing and analyzing records and reviewing documentation. We
reviewed:
   •   Inventory management process for IT assets to ensure that management monitors and
       protects property and other assets against waste, loss, unauthorized use, or
       misappropriation
   •   Patch management procedures for patch installations and monitoring
   •   Antivirus versions, scan engines and signature timestamps
   •   Logical access process, we performed an analysis of their ITIO managed Active
       Directory (AD) and remote user Virtual Private Network (VPN) accounts and
   •   Port control access that prevents unauthorized access to information, particularly to
       personally identifiable information (PII) and other sensitive data

For the principle criteria used for this review see Appendix C.




Report No. A-18-12-30420                                                                13
                                                                                    APPENDIX C


             APPENDIX C: CRITERIA AND FEDERAL REQUIREMENTS

Inventory Management

NIST SP 800-53, Page F-44, Revision 3, Information Security, dated August 2009, CM-8
Information System Component Inventory – The organization develops, documents, and
maintains an inventory of information system components that: Accurately reflects the current
information system; Is consistent with the authorization boundary of the information system; Is
at the level of granularity deemed necessary for tracking and reporting; and is available for
review and audit by designated organizational officials. This includes the following control
enhancements:
         1.      The organization updates the inventory of information system components as an
                 integral part of component installations, removals, and information system
                 updates.
         2.      The organization employs automated mechanisms to help maintain an up-to-date,
                 complete, accurate, and readily available inventory of information system
                 components.

NIST SP 800-53 Rev 3, section CM-8; page F-44 – Information System Component Inventory:

       “Supplemental Guidance: Information deemed to be necessary by the organization to
       achieve effective property accountability can include, for example, hardware inventory
       specifications (manufacturer, type, model, serial number, physical location), software
       license information, information system/component owner, and for a networked
       component/device, the machine name and network address.”

HHS-OCIO Policy for Information Systems Security and Privacy Handbook, Section 1.8,
P-AM.2 and P-AM.3, page 11, states all assets shall be tracked in an asset inventory database
to include (at a minimum) name, location, asset identification (ID), owner, and description of
use. Section 1.8 further states that OPDIVs: Develop and conduct procedures for verifying
accuracy for OPDIV or STAFFDIV IT asset inventories. Collaborate with Designated
Approving Authorities (DAAs)/Authorizing Officials (AOs), Information System Security
Officers (ISSOs), field technicians, and others as necessary to conduct verification procedures.
Engage/use the HHS Property Management Information System, as appropriate.

HHS-OCIO Policy for Information Systems Security and Privacy Handbook, Section 2.8,
Remote Access S-RMT.1, page 42, states – All computers and devices, whether government-
furnished equipment (GFE) or contractor-furnished equipment (CFE), that require any network
access to a Department or OPDIV network or system shall be securely configured and meet at
least the following security requirements: (i) up-to-date system patches, and (ii) current anti-
virus software; and (iii) functionality that provides the capability for automatic execution of
code disabled.

HHS Logistics Management Manual (LMM) Policy and Procedures, Executive Summary
section page iii and page 3, states that the "management of property and other programs and
activities"; to include ordering, receiving, storing, distributing, accounting for, maintaining, and
Report No. A-18-12-30420                                                                  14
                                                                                  APPENDIX C

disposing of supplies and equipment. This includes the Departmental Property Management
Information System (PMIS), which is used to track Property Plant and Equipment (PP&E)
records. PMIS provides reasonable assurances that funds, property, and other assets are
protected against waste, loss, unauthorized use, or misappropriation. The PMIS is the
enterprise-wide PP&E management system as mandated by ASAM on June 24, 2004.
Furthermore, in section 1.1.8 of the manual it also states that HHS logistics OPDIVs and
STAFFDIVs shall use the Department’s PMIS as the PP&E System of Record. All other legacy
systems are not the System of Record, and shall be decommissioned.

Patch Management

NIST SP 800-40, Version 2, Creating a Patch and Vulnerability Management Program, page
ES-1 and page 2-2, par 8, executive summary states that timely patching is critical to maintain
the operational availability, confidentiality, and integrity of IT systems. It also states that a
central patch and vulnerability group (PVG) should deploy patches automatically to IT devices
using enterprise patch management tools. Automated patching tools allow an administrator to
update hundreds or even thousands of systems from a single console.

NIST SP 800-53, Page F-44, Revision 3, Information Security, dated August 2009, CM-8
Information System Component Inventory – The organization develops, documents, and
maintains an inventory of information system components that: Accurately reflects the current
information system; Is consistent with the authorization boundary of the information system; Is
at the level of granularity deemed necessary for tracking and reporting; and is available for
review and audit by designated organizational officials. This includes the following control
enhancements:

      1.      The organization updates the inventory of information system components as an
      integral part of component installations, removals, and information system updates.
      2.      The organization employs automated mechanisms to help maintain an up-to-date,
      complete, accurate, and readily available inventory of information system components.

NIST SP 800-53 Rev 3, section CM-8; page F-44 – Information System Component
Inventory:

      “Supplemental Guidance: Information deemed to be necessary by the organization to
      achieve effective property accountability can include, for example, hardware inventory
      specifications (manufacturer, type, model, serial number, physical location), software
      license information, information system/component owner, and for a networked
      component/device, the machine name and network address.”

NIST SP 800-137, section 3.4.2, page 32, states “Organizations define security status reporting
requirements in the ISCM strategy. This includes the specific staff/roles to receive ISCM
reports, the content and format of the reports, the frequency of reports, and any tools to be
used.” It continues: “Organizations may consider more frequent reports for specific controls
with more volatility or on controls for which there have been weaknesses or lack of
compliance.”
Report No. A-18-12-30420                                                                15
                                                                                    APPENDIX C



HHS-OCIO Policy for Information Systems Security and Privacy Handbook, Section 2.10
Personally-Owned Equipment and Software (POES) states:
S-POES.1, page 44 – Prohibit connection of personally-owned equipment to Department
systems or networks without written authorization from the appropriate OPDIV CIO or his/her
designated representative.
S-POES.1.1, page 44 – Scan personally-owned equipment that has received the proper written
authorization to ensure it complies with OPDIV/STAFFDIV system requirements (e.g., updated
patches) before connecting it to Department systems or networks. Note: Use of personally-
owned equipment or CFE on government networks is recognized as potentially introducing a
high level of risk to the government computing infrastructure. These connections shall only be
permitted as a risk-based decision made by the OPDIV CIO or his/her designated
representative.
S-POES.4, page 44 – Prohibit personally-owned or non-Department equipment from
processing, accessing, or storing PII unless approved in writing by the OPDIV SOP.

HHS-OCIO Policy for Information Systems Security and Privacy Handbook, Section 2.8,
Remote Access S-RMT.1, page 42, states – All computers and devices, whether government-
furnished equipment (GFE) or contractor-furnished equipment (CFE), that require any network
access to a Department or OPDIV network or system shall be securely configured and meet at
least the following security requirements: (i) up-to-date system patches, and (ii) current anti-
virus software; and (iii) functionality that provides the capability for automatic execution of
code disabled.

Antivirus Management

NIST 800-42, page 3-9, section 3.7, Virus Detectors; paragraph 6; states that the most
important aspect of virus detection software is frequent, regular updates of virus definition files
and on-demand updates when a major virus is known to be spreading throughout the Internet.
When the database is updated frequently, the anti-virus software will detect more viruses. If
these preliminary steps are taken, the chances of a major virus infection are minimized.

HHS OCIO Handbook, Section 1.6 P-CM.14, page 9 – Ensure current anti-virus software is
included, as appropriate, on systems connected to the HHS network, and that the software is
configured to automatically perform periodic virus scanning.

HHS-ITIO Standard Operating Procedures for Anti-Virus Management, page 4 - provides
the process to be followed for performing daily antivirus management for all users with access
to the Check Point Endpoint Security console.

HHS-PSC-ITIO Foreign Hardware Scanning Guide, page 3 “Executive Summary”, states –
“HHS/ITSC Program Security Guide requires that foreign hardware whether laptops or
desktops to be configured with a minimum baseline security posture to include:

1.    “Employ industry recognized antivirus software with current signature files”

Report No. A-18-12-30420                                                                 16
                                                                                   APPENDIX C


Logical Access

NIST SP 800-12, section 10.2, page 112, states that effective administration of users’ computer
access is essential to maintaining system security.

NIST SP 800-14, section 3.5.2, page 28, generally states that organizations should have a
process for (1) requesting, establishing, issuing, and closing user accounts; (2) tracking users
and their respective access authorizations; and (3) managing these functions.

NIST SP 800-53 Rev 3, section AC-2; page F-4 – Account Management:

      “Supplemental Guidance: The identification of authorized users of the information
      system and the specification of access privileges is consistent with the requirements in
      other security controls in the security plan. Users requiring administrative privileges on
      information system accounts receive additional scrutiny by organizational officials
      responsible for approving such accounts and privileged access.”

HHS-OCIO Policy for Information Systems Security and Privacy Handbook, Section 2.8,
Remote Access S-RMT.1, page 42, states – All computers and devices, whether government-
furnished equipment (GFE) or contractor-furnished equipment (CFE), that require any network
access to a Department or OPDIV network or system shall be securely configured and meet at
least the following security requirements: (i) up-to-date system patches, and (ii) current anti-
virus software; and (iii) functionality that provides the capability for automatic execution of
code disabled.

HHS-OCIO Policy for Information Systems Security and Privacy Handbook, page 49
Section 2: HHS Assignments and Selections in accordance with NIST SP 800-53 Rev. 3 states:

      “The information system automatically disables inactive accounts after…60 days or
      less.”

HHS-OCIO Policy for Information Systems Security and Privacy Handbook, page 40
Section 1: Department-wide Program-level and System-level Controls; subsection 2.5
Passwords; paragraph states:

      “S-PSWD.3 – Ensure passwords are changed at least every 60 days, immediately in the
      event of known or suspected compromise, and immediately upon system installation
      (e.g., default or vendor-supplied passwords).”

ITIO SOP – User Account Creation/Removal/Permission Procedures version 2.4, page 2,
generally states ITIO’s procedures for New Employee Account Creation, Current Employee
Account Transfer, Departing Employees, Permissions Requests and Monthly Disable/Delete
Process.

USB Port Control Access

Report No. A-18-12-30420                                                                 17
                                                                                   APPENDIX C

NIST SP 800-53 Revision 3, section SI-3, page F-125, Recommended Security Controls for
Federal Information Systems and Organizations, states that the organization “Employs malicious
code protection mechanisms at information system entry and exit points and at workstations,
servers, or mobile computing devices on the network to detect and eradicate malicious code:
    • Transported by electronic mail, electronic mail attachments, web accesses, [USB
        devices], or other common means; or
    • Inserted through the exploitation of information system vulnerabilities ….”


SAMHSA’s Information Technology Security Program Policy states that “SAMHSA shall
ensure appropriate physical security controls are in place to protect all Agency electronic media
from unauthorized access. Electronic media may include disk drives, diskettes, internal and
external hard drives, portable devices, backup media, removable media, and media containing
sensitive information. Electronic media containing sensitive and privacy data shall be
encrypted.”

“All SAMHSA laptop computers shall be secured using a FIPS 140-2 compliant whole-disk
encryption solution.”




Report No. A-18-12-30420                                                                18
                                                              SAMHSA'S COMMENTS                                          APPENDIXD 

    ~ Subatence Abuse and Mental Haallh Services Admlnlatratfon




  ~5/JMlf!itl
.........  www.aamhaa.gov • 1-877·SAMHSA·7 (1·877·726·4727)


            ~        .. ............        ~~~~~      .................... ....................                               ~~-~-~       .........

                                                                    JUN 2 8 2013



                TO: 	                Director of Information System Auditor
                                                                                                      -~--·-·   ... ... ....


                FROM: 	              Deputy Administrator for Operations               / / ..,.---­

                                                                                   ~ices Administration's
                                                                                                                                      '
                                                                                                                                        \
                SUBJECT: 	           2013 Substance Abuse and Mental Heal
                                     (SAMHSA) FISMA Audit Response                                                                  j
                In response to the 2013 OIGFISMA Audit, attac ed is                                                                oraft
                OIG FISMA Audit findings.




                 Attachment




              ~·;W,                           ¥'~J~$~(i1, 	                                                                    ­

   Behavioral Health is Essential To Health • Prevention Works • Treatment is Effective • People Recover
                                 SAMHSA'S COMMEN TS                               APPENDI XD 




                                            SAMHSA 





            SAMHSA OIG AUDIT 

               RESPONSE 

                                  Final Response
                                          DTM IT Security
                                            6/26/2013




This SAMHSA OIG Audit Response document identifies vulnerabilities discovered during the OIG Audit.
This document highlights the detailed findings, OIG recommendations, and SAMHSA's detailed Plan of
Action to remediate these items and improve overall security at SAMHSA and HHS.
                                 SAMHSA'S COMMENTS                              APPENDIXD 





Introduction
On May 31,2013, the Division of Technology and Management (DTM) was provided with a
draft copy of the Depattment of Health and Human Services' (HHS) Office of the Inspector
General (OIG), Audit A-18-12-30420 report titled, Information Security Weaknesses Poses Risk
to Operations and Mission ofSAMHSA.

The report identifies five categories of vulnerabilities and makes 17 recommendations to
impmve security at HHS. SAMHSA concurs with the noted findings and has planned multiple
activities to impmve and/or remediate most ofthe items. Most of the suggested
recommendations encourage SAMHSA to have more oversight and control on the outsourced
network infrastructure and IT asset services managed by the Information Technology
Infrastructure and Operations (ITIO).

The overall pmcess of SAMHSA will be to work in collaboration with the ITIO to track progress
against the plans that are in place to address the OIG recommendations, coordinate remediation
effotts, and ensure appropriate tracking of outstanding items in their respective plans of action
and milestones (POA&M). SAMHSA expects ITIO to be responsible for assessing their own
risks with regards to each OIG finding and recommendation and to develop POA&Ms to
properly address the recommendations. SAMHSA's POA&M will include items managed by
the ITIO to ensure remediation efforts are uniformly tracked and properly mitigated.
Additionally, SAMHSA will develop an internal audit review process by which to monitor and
grade ITIO's performance.




                                                1

                                        SAMHSA'S COMMENTS                              APPENDIXD 





 OIG Findings and SAMHSA Status
 This section contains a complete list ofthe recommended actions broken down by description, owner, 

 concurrence and status: Status is ftuther broken down into: 


      • 	 Open: This task is still in the initial planning stages.

      • 	 In Progress: Plans for this task have begun to be implemented and ai·e in development towards
          full mitigation or remediation.

      • 	 Complete: This task is complete.     1



  SAMHSA will be sure to keep this Summary offindings ctment with the latest status for remediating the
· listed recommendations;

 Table 2. HHS OIG MJR Response Summary




             Implements the Departmental
             Property Management Infonnation
             System (PMIS) in order to provide
             a continuous monitoring program
 Rl                                                       SAMHSACISO         Yes                  Open
             to ·SAMHSA that will accurately
             account for all IT assets, and
             provide comprehensive reporting
             to the SAMHSA Chief Information
             Officer
             Updates inventory to include all             SAMHSACISO         Yes                  In
             computers and servers connecting                                                     Progress
             to the SAMHSA network that are
 R2          managed by ITIO. Employ
             controls that ensure an effective
             method for tracking computer

             Upgrades or replace all servers              SAMHSACISO         Yes                  In
 R3          with End-of-Life (EOL) operating                                                     Progress
             systems to operating systems
                           the vendor.
             Security team ensures that patch             SAMHSACISO         Yes                  Open
 R4          repotts are accessible to
             SAMHSA's Chieflnfonnation
                      Officer.




                                                         2

                                     SAMHSA'S COMMEN TS                         APPENDI XD 




                                                                      Agree with
Findiug   Dcsuiption                               Owner 	            Htco mmcnd atio n   Status
                                                                      (Yes/No)

          Should reconcile SAMHSA's                   SAMHSACIS O     Yes                 Open
          inventory and patch report data, at
RS
          least monthly, to determine
          whether all assets are appropriately
          patched.
          Update all computers and servers            SAMHSACIS O     Yes                 Open
R6        running out of date antivirus
          timestamp signatures.
          Establish effective procedures to           SAMHSACIS O     .Yes                Open
R7 	      monitor and remediate computers
          with out-of-date timestamp
          sigt!_atures.
R8        Document logging alerts that have           SAMHSACIS O 	   Yes                 Open
          been remediated.
          Add the following processes to              SAMHSACIS O     Yes                 Open
           ITIO's Infrastmcture Operations
           Standard Operating Procedure 

           (SOP): 

R9 	       - Follow-Up process for
           computers not in compliance with
           latest antivirus time stamps within
           SOP.
           - Process for server antivirus
           management.
           Create naming conventions that              SAMHSACIS O    Yes                 Open
RIO 	      include computer names that will
           defme which organization it has
           been assigned to.
           Disable accounts inactive greater           SAMHSACIS O    Yes                 In
           than 60 days and subsequently                                                  Progress
Rll
           delete accounts determined to be 

           no longer needed ·greater than 90 

            days. 

R12 	      Delete user accounts oftetminated           SAMHSACIS O     Yes                 Open 

            em"Qloyees. 

            Should disable, delete, or provide a       SAMHSACIS O     Yes                 Open 

RI3
            waiver for the user account with a
            password status of"Not Required,
            Periodically review access user            SAMHSACIS O     Yes                 Open
R14
            control lists to determine if
            accounts are still needed.
            Restrict personnel from connecting         SAMHSACIS O     Yes                 Open
Rl5
            unauthorized USB devices to 

            computers. 





                                                       3

                                   SAMHSA'S COMMENTS                    APPENDIXD 




                                                              Agn·t· with
Finding   Description                         OwnlT           Rccom mend a tion   Status
                                                              (Yes/No)

          Prevent sensitive data from being     SAMHSACISO    Yes                 Open
R16       written to
          unauthorized/unenc1ypted USB
          devices.
          Enforce the Department                 SAMHSACISO   Yes                 Open
          information security policy that
Rl7       restricts the connection of
          personally owned equipment to
          Depm1ment systems or networks.




                                                4

                                 SAMHSA'S COMMENTS                              APPENDIXD




SAMHSA Detailed Plan of Action
SAMHSA acknowledges the importance of identifying potential security threats and will address
all relevant identified weaknesses in a timely manner. Related to the Inspector General (IG) five
categories ofvulnerabilities SAMHSA plans to take the following steps ofremediation:



Finding #1: Inventory Management- The records given to us by ITIO had different totals of
computers it managedfor SAMHSA. Inventory was not tracked and managed effectively and
therefore neither ITIO nor SAM!fSA was able to accountfor all SAMHSA IT assets and ensure
their security compliance

Suggested Remediation Actions:

    • 	 Implement the Departmental Property Management Information System (PMIS) in order
        to provide a continuous monitoryprogram to SAMSHA that will accurately accountfor
        all IT assets, andprovide comprehensive reporting to the SAMHSA ChiefInformation
        Officer (CIO.)
    • 	 Updates inventory to include all computers and servers connecting to the SAMHSA
        network that are managed by ITIO.
    • 	 Upgrades or replaces all servers with End-of-Life (EOL) operating systems to operating
        systems supported by the vendor.



SAMHSA Response:

SAMHSA concurs with Finding #1 and the OIG suggested remediation actions and plans to take
the following steps of remediation:

    1. 	 SAMHSA team will meet with ITIO on bi-weekly basis to get status updates on the
         Implementation of Depattmental Propetty Management Information System (PMIS) and
         provide assistance necessary to complete this task.
    2. 	 SAMHSA team will coordinate with ITIO to resolve IT assets inventory discrepancies.
         SAMHSA team will also work with ITIO on selecting one inventory management tool
         used by both teams to account for and report all IT assets.
    3. 	 SAMHSA team will ensure that the inventory management tool selected will provide
         operating system software infonnation which will allow SAMHSA and ITIO to identify
         systems that are running operating systems that are no longer supported by the vendor
         and create a plan for updating these systems.



Finding #2: Patch Management- SAMHSA did not ensure that JTIO had effectively 

implemented its patch managementprogram for those devices managed by ITIO. We identified 



                                                 5

                                SAMHSA'S COMMENTS                              APPENDIXD 




vulnerabilities within the SAMHSA network that if exploited could have led to unauthorized
disclosure, modification, or non-availability ofcritical data.

Suggested Remediation Actions:

   • 	 Security team ensures thatpatch reports are accessible to SAMHSA ChiefInformation
       Security officer.
   • 	 Should reconcile SAMHSA 's inventory and patch report data, at least monthly, to 

       determine whether all assets are appropriately patched 


SAMHSA Response:

SAMHSA concurs with Finding #2 and the OIG suggested remediation actions and plans to take
the following steps of remediation:

    1. 	 SAMHSA team will request on a bi-weekly basis a patch implementation report from
         ITIO and will provide these reports to SAMHSA's Chieflnformation Security Officer
         (CISO) on a schedule that the CISO selects.
    2. 	 SAMHSA team will meet with ITIO on a bi-weekly/monthly basis to reconcile inventory,
         patching or antivirus compliance reports.



Finding #3: Antivirus Management -ITIO and SAMHSA did not ensure that all ofthe
SAMHSA computers and servers managed by ITIO had updated antivirus signatures.

Suggested Remediation Actions:

    • 	 Update all computers and servers running out ofdate antivirus timestamp signatures.
    • 	 Establish effective procedures to monitor and remediate computers with out-of-date
        timestamp signatures.
    • 	 Document logging alerts that have been remediated
    • 	 Add the following processes to ITIO 's Infrastructure Operations Standard Operating
        Procedure (SOP):

        -Follow-up proce~s for computers not in compliance with the latest antivirus time stamps
        within SOP.

        -Processfor server antivirus management.

    • 	 Create naming conventions that include computer names that will define which 

        organization it has been assigned to. 





                                                6

                                SAMHSA'S COMMENTS                              APPENDIXD



.SAMHSA Response:

SAMHSA concurs with Finding #3 and the OIG suggested remediation actions and plans to take
the following steps of remediation:

   l. 	 SAMHSA team will request ITIO to provide reports on bi-weekly basis that details
        antivirus engine and signature timestamps for all ITIO owned and managed computers
        and servers used for SAMHSA' s operations.
   2. 	 SAMHSA team will request ITIO create a plan of action for monitoring and·remediating
        computers with out-of~date timestamp signatures.
   3. 	 SAMHSA team will request on a bi~weekly basis a report from ITIO detailing applicable
        security patch application on all ITIO owned and managed computers and servers used
        for SAMHSA's operations.
   4. 	 SAMHSA team will verify that ITIO's Infrastructure Operations Standard is updated
        with the following: Follow-up process for computers not in compliance with latest
        antivirus time stamps, Process for server antivirus management.
   5. 	 SAMHSAteam will work with ITIO in creating naming conventions within Active
        Directory for all ITIO owned and managed computers and servers used for SAMHSA's
        operations.



Finding #4: Logical Access -ITIO and SAMHSA did not implement an effective logical access
controlprocess for its user accounts and did not conduct sufficient reviews to ensure that only
valid users had access to their information system.

Suggested Remediation Actions:

    • 	 Disable accounts inactive greater than 60 days and subsequently delete accounts 

        determined to be no longer needed greater than 90 days. 

    • 	 Delete user accounts ofterminated employees.
    • 	 Should disable, delete, or provide a waiver for the user account with a password status of
         f(Not Required "
    • 	 Periodically review access user control lists to determine if accounts are still needed.



SAMHSA Response:

SAMHSA concurs with Finding #4 and the OIG suggested remediation actions and plans to take
the following steps of remediation:

        1. SAMHSA team will coordinate a meeting with ITIO to ensure technical controls are
           implemented to disable accounts inactive gt·eater than 60 days and subsequently
           delete accounts determined to be no longer needed greater than 90 days for all ITIO
           owned and managed computers and servers used for SAMHSA's operations.



                                                7

                               SAMHSA'S COMMENTS                              APPENDIXD 




      2. 	 SAMHSA team will coordinate a meeting with ITIO to review the process of deleting
           user accounts of terminated employees and ensure technical controls are implemented
           to enforce this process.
      3. 	 SAMHSA team will coordinate a meeting with ITIO to verify that all accounts with
           password status of''Not Required" are disabled, deleted, or a waiver has been
           provided for the user account and ensure technical controls are implemented to
           enforce this.
      4. 	 SAMHSA team will coordinate a meeting with ITIO to verify access user control list
           review is documented and performed periodically.



Finding #5: USB Port Control Access- ITIO and SAMHSA did not have any technical
controls to prevent unauthorized and unencrypted USB devices from connecting to SAMHSA
computer.

Suggested Remediation Actions:

   • 	 Restrict personnelfrom connecting unauthorized USB devices to computer.
   • 	 Prevent sensitive data from being written to unauthorized /unencrypted USB devices. .
   • 	 Enforce the Department information security policy that restricts the connection of
       personally owned equipment to Department systems or networks.



SAMHSA Response:

SAMHSA concurs with Finding #5 and the OIG suggested remediation actions and plans to take
the following steps of remediation:

       1. 	 SAMHSA team will coordinate a meeting with ITIO to ensure technical controls are
            implemented to restrict personnel from connecting unauthorized USB devices to ITIO
            owned and managed computers and servers used for SAMHSA's operations.
       2. 	 SAMHSA team will coordinate a meeting with ITIO to ensure technical controls are
            implemented to prevent sensitive data from being written to
            unauthorized/unencrypted USB devices on ITIO owned and managed computers and
            servers used for SAMHSA's operations.
       3. 	 SAMHSA team will coordinate a meeting withiTIO to ensure technical controls are
            implemented to enforce HHS information security policy that restricts the connection
            of personally owned equipment to SAMHSA systems or networks.




                                               8

                                 SAMHSA'S COMMENTS                              APPENDIXD



Summary of SAMHSA Response:

In conclusion SAMHSA acknowledges it needs to strengthen its communication and
collaboration with the ITIO. Most, ifnot all, ofthe suggested OIG recommendations require
SAMHSA to communicate and have more visibility of the outsourced network services managed
by the ITIO. SAMHSA appreciates the OIG review and will utilize the recommendations to
ensure the continued confidentiality, integrity and availability of SAMHSA infmmation and
information assets~

In SAMHSA response to the OIG recommendations the common dynamic is the engagement in
more recurring meetings. These meetings will be structured to repeat the same processes the
OIG exercised that revealed the security fmdings. SAMHSA is confident that its planned
responses will result in a more strengthened security program that is more vigilant and aware of
the success ofthe network services provided. SAMHSA expects full cooperation and timely
participation from the ITIO to remediate the suggested recommendations in a timely manner.




                                                9

